No.

 

IN THE

Supreme Court of the Gnited States

JOSHUA BAKER, in his official capacity as Director,
South Carolina Department of Health and Human Services,
Petitioner,
v.
JULIA EDWARDS, on her behalf and on behalf
of all others similarly situated, et al.,
Respondents.
AFFIDAVIT OF SERVICE
I HEREBY CERTIFY that all parties required to be served, have been served, on this
27" day of March, 2020, in accordance with U.S. Supreme Court Rule 29.3, three (3)
copies of the foregoing PETITION FOR A WRIT OF CERTIORARI by placing said
copies in the U.S. mail, first class postage prepaid, addressed as listed below.

M. Malissa Burnette Alice Chapman

Kathleen M. McDaniel Planned Parenthood
Burnette Shutt McDaniel Federation of America
912 Lady Street 1100 Vermont Avenue, NW
2"! Floor Suite 300

Columbia, SC 29201 Washington, DC 20005
mburnette@burnetteshutt.law alice.chapman@ppfa.org
kmcdaniel@burnetteshutt.law jennifer.sandman@ppfa.org

CHARLES CLARK

BYRON S. ADAMS, LEGAL & COMMERCIAL PRINTERS
15 L Street, NW, Suite 100

Washington, DC 20036

(202) 347-8203

  

District of Columbia: SS

Subscribed and Sworn to before me this 27" day of March, 2020.

KAREN PIERANGELI
NOTARY PUBLIC, DISTRICT OF COLUM!
My Commission Expires June 14, 2020.

 

 

 
